CERTIFICATE OF SERVICE
I, the undersigned, hereby certify that on this 9th day of September, 2021,1 served a true
and correct copy of the foregoing Petitioners Supplemental Brief, pursuant to Rule 12.2 upon:

Office of Indiana Attorney General
302 W. Washington St., I.G.C.S. - 5th FI.
Indianapolis, Indiana. 46204-2770
And
Solicitor General of the United States, Room 5614,
Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, DC 20530-0001
by submitting same to a designated civilian employee of the Indiana Department of Corrections
for prompt processing and (check one) uncertified mailing by authorized prison personnel within
the facility mailroom, with sufficient first class postage affixed, and it shall be deemed FILED as
of the above date per Rule 29 (2)(4).
That the Petitioner declares, in compliance with 28 U. S. C. 1746, that he is not a member
of the Bar of this Court and not an attorney and or appointed to represent a party under the Criminal
Justice Act of 1964, see 18 U. S. C. 3006A(d)(7), or under any other applicable federal statute.
The Petitioner is a pro se litigant who is an inmate of an institution.

Samuel Lee Jackson,
Petitioner / Pro se
DOC #913731
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, IN 46064-9001

4

